No. 20-319
IN THE

Supreme Court of the United States
__________
COMCAST CORPORATION AND
COMCAST CABLE COMMUNICATIONS MANAGEMENT, LLC,
Petitioners,
v.
VIAMEDIA, INC.,
Respondent.
__________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
__________
BRIEF IN OPPOSITION FOR RESPONDENT
__________
AARON M. PANNER
Counsel of Record
JAMES M. WEBSTER III
DEREK T. HO
MATTHEW R. HUPPERT
KELLOGG, HANSEN, TODD,
FIGEL & FREDERICK, P.L.L.C.
1615 M Street, N.W.
Suite 400
Washington, D.C. 20036
(202) 326-7900
(apanner@kellogghansen.com)
November 3, 2020

QUESTIONS PRESENTED
1. Whether the Seventh Circuit correctly reversed
dismissal of plaintiff ’s federal antitrust claim on the
ground that the district court erroneously resolved,
at the pleading stage, factual disputes regarding the
existence of an asserted justification for defendant’s
refusal to deal, when defendant otherwise did not contest that the complaint stated a claim under Section 2
of the Sherman Act pursuant to this Court’s governing
precedents.
2. Whether the Seventh Circuit correctly concluded
that plaintiff presented sufficient evidence of unlawful
tying in violation of Section 2 of the Sherman Act to
survive summary judgment under unchallenged legal
standards.

ii
RULE 29.6 DISCLOSURE STATEMENT
Viamedia, Inc. is a privately held company. Its
parent corporation is Viamedia Conduit LLC, which is
also a privately held company.

iii
TABLE OF CONTENTS

Page

QUESTIONS PRESENTED ........................................ i
RULE 29.6 DISCLOSURE STATEMENT ................. ii
TABLE OF AUTHORITIES ........................................v
INTRODUCTION ....................................................... 1
STATEMENT .............................................................. 3
A. Factual Background ......................................... 3
B. Procedural Background ................................... 9
REASONS FOR DENYING THE PETITION ........... 1
I. The Seventh Circuit’s Decision Does Not
Conflict With This Court’s Precedents .......... 14
A. The Seventh Circuit Expressly Applied the Aspen/Trinko Factors ............... 14
B. The Seventh Circuit Properly Refused To Credit Comcast’s Asserted
Justification at the Pleading Stage .......... 17
II. The Seventh Circuit’s Decision Creates
No Circuit Conflict ......................................... 21
A. Comcast Identifies No Circuit Conflict with Respect to the Holding
Below ......................................................... 22
B. Supposed Inconsistencies in Standards Governing Evaluation of Proffered Legitimate Business Justifications Do Not Merit Review ....................... 26

iv
III. The Determination That Disputed Issue
Of Fact Precluded Summary Judgment
On Viamedia’s Tying Claim Does Not
Warrant Review ............................................. 29
CONCLUSION.......................................................... 33

v
TABLE OF AUTHORITIES

Page

CASES
Aerotec Int’l, Inc. v. Honeywell Int’l, Inc.,
836 F.3d 1171 (9th Cir. 2016) ........................25, 32
Aspen Skiing Co. v. Aspen Highlands Skiing
Corp., 472 U.S. 585 (1985) ....................1, 2, 11, 14,
15, 16, 17, 18,
21, 23, 25, 26, 28, 29
Black v. Cutter Labs., 351 U.S. 292 (1956) .........22, 26
California v. Rooney, 483 U.S. 307 (1987) ............... 26
Chevron U.S.A. Inc. v. Natural Res. Def. Council, Inc., 467 U.S. 837 (1984) ............................... 26
Christy Sports, LLC v. Deer Valley Resort Co.,
555 F.3d 1188 (10th Cir. 2009) ........................... 23
Covad Commc’ns Co. v. Bell Atl. Corp., 398 F.3d
666 (D.C. Cir. 2005) ............................................. 12
Eastman Kodak Co. v. Image Technical Servs.,
Inc., 504 U.S. 451 (1992) ..................................... 28
FEC v. Akins, 524 U.S. 11 (1998) ............................. 27
Jefferson Parish Hosp. Dist. No. 2 v. Hyde,
466 U.S. 2 (1984) ................................................. 30
Jones v. Bock, 549 U.S. 199 (2007) ....................... 2, 19
Lorain Journal Co. v. United States, 342 U.S.
143 (1951) ............................................................ 11
Mohawk Indus., Inc. v. Carpenter, 558 U.S. 100
(2009) ................................................................... 27
Morris Commc’ns Corp. v. PGA Tour, Inc.,
364 F.3d 1288 (11th Cir. 2004) ........................... 25

vi
National Football League v. Ninth Inning, Inc.,
No. 19-1098 (U.S. Nov. 2, 2020) .......................... 27
Northern Pac. Ry. Co. v. United States, 356 U.S.
1 (1958) ................................................................ 32
Novell, Inc. v. Microsoft Corp., 731 F.3d 1064
(10th Cir. 2013) ..............................................22, 23,
28, 29, 33
Oahu Gas Serv., Inc. v. Pacific Res., Inc.,
838 F.2d 360 (9th Cir. 1988) ................................. 25
Ohio v. American Express Co., 138 S. Ct. 2274
(2018) ................................................................... 28
Pacific Bell Tel. Co. v. Linkline Commc’ns, Inc.,
555 U.S. 438 (2009) .........................................1, 11,
14, 29, 31
Port Dock & Stone Corp. v. Oldcastle Northeast,
Inc., 507 F.3d 117 (2d Cir. 2007)......................... 24
Service & Training, Inc. v. Data Gen. Corp.,
963 F.2d 680 (4th Cir. 1992) ............................... 32
SOLIDFX, LLC v. Jeppesen Sanderson, Inc.,
841 F.3d 827 (10th Cir. 2016) ........................23, 24
Timbisha Shoshone Tribe v. Salazar, 678 F.3d
935 (D.C. Cir. 2012) ............................................. 27
United States v. Microsoft Corp., 253 F.3d 34
(D.C. Cir. 2001) .................................................... 28
Verizon Commc’ns Inc. v. Law Offices of Curtis
V. Trinko, LLP, 540 U.S. 398 (2004).....1, 2, 11, 14,
16, 17, 26, 29
Waugh Chapel South, LLC v. United Food
& Commercial Workers Union Local 27,
728 F.3d 354 (4th Cir. 2013) ............................... 19

vii
STATUTES
Sherman Act, 15 U.S.C. § 1 et seq. ............................ 9
§ 2, 15 U.S.C. § 2 .........................................9, 11, 30

OTHER MATERIALS
IIIB Phillip E. Areeda & Herbert Hovenkamp,
Antitrust Law (4th ed. 2015) ..........................20, 28
Robert Bork, The Antitrust Paradox: A Policy
at War with Itself (2d ed. 1993) ........................... 11
David McCullough, John Adams (2001) .................. 27

INTRODUCTION
In 2012, upending decades of industry practice,
Comcast abruptly kicked cable companies represented
by Viamedia out of the joint-selling arrangements
known as advertising “interconnects” in the hope, soon
realized, of driving Viamedia out of the market for
Ad Rep Services, securing Comcast’s monopoly. Only
companies doing business with Viamedia suffered this
treatment. The court below applied settled motion-todismiss and summary-judgment standards in concluding that Viamedia had pleaded a viable refusalto-deal claim and marshalled sufficient evidence for
trial on its separate tying claim. The appeals court
adhered rigorously to this Court’s precedents, decided
no issue in conflict with any other circuit, and broke
no new antitrust ground. With discovery nearing completion in the district court, the interlocutory posture
of the decision further militates against review.
As to the first question presented, it is settled
law that, “[u]nder certain circumstances, a refusal to
cooperate with rivals can constitute anticompetitive
conduct and violate [Sherman Act] § 2.” Verizon
Commc’ns Inc. v. Law Offices of Curtis V. Trinko, LLP,
540 U.S. 398, 408 (2004). This Court has set out those
circumstances in cases like Aspen Skiing Co. v. Aspen
Highlands Skiing Corp., 472 U.S. 585, 601 (1985),
Trinko, and Pacific Bell Telephone Co. v. Linkline
Communications, Inc., 555 U.S. 438 (2009). The Seventh Circuit applied that precedent to Viamedia’s
complaint, which alleged that all of the circumstances
that made refusal-to-deal liability in Aspen Skiing
appropriate – termination of a profitable course of
dealing, scuttling of a business arrangement embraced
in competitive markets and demanded by consumers,
and sacrifice of profitable transactions solely to harm

2
a rival – were present here. As the court below
observed, in every relevant respect, Viamedia’s claims
are “well within th[e] bounds [of ] and appear[ ]
stronger than Aspen Skiing.” App. 54a.
Comcast does not challenge the court of appeals’
determination that Viamedia pleaded the existence of
all of the Aspen/Trinko factors. Instead, it argues
that the Seventh Circuit erred by refusing to treat as
dispositive, at the pleading stage, Comcast’s assertion
that its desire to pursue “vertical integration” and to
“cut out the middleman” was a legitimate justification
for its facially anticompetitive refusal to deal. Pet. 13,
30. But the Seventh Circuit held that Viamedia’s
complaint did not allege that Comcast had any such
justification; on the contrary, it alleged that there was
no legitimate justification. The Seventh Circuit was
correct – and broke no new ground – in determining
that “a factual dispute regarding the existence of procompetitive justifications” for a potentially unlawful
refusal to deal is not “appropriate for resolution on the
pleadings.” App. 57a; see Jones v. Bock, 549 U.S. 199,
215-16 (2007). Comcast does not and cannot claim
that this case-specific holding is in tension with any
decision of this Court, is in conflict with the decision
of any court of appeals, or has any importance beyond
this case.
Comcast’s petition instead challenges the Seventh
Circuit’s statements that, in evaluating evidence of
legitimate business justification for a defendant’s
facially unlawful refusal to deal, there must be some
balancing of proven benefits against proven harms.
But those statements are not worthy of review.
The court’s holding addressed the sufficiency of the
pleadings; how the district court should evaluate any
evidence of legitimate justification is an issue that

3
may never arise. And, at any rate, the Seventh Circuit’s statements create no conflict with this Court’s
precedent or with any decision from another circuit.
The second question presented – which challenges
the court of appeals’ determination that Viamedia
had proffered sufficient evidence to warrant a trial on
its tying claim – further undercuts the petition. The
Seventh Circuit held, under unchallenged summaryjudgment standards, that the record established disputed issues of fact on Viamedia’s tying claim regardless of whether Comcast’s conduct could be condemned
as an unlawful refusal to deal. That case- and factspecific determination does not warrant review.
Furthermore, that holding provides an additional
reason to deny review of the court of appeals’ interlocutory refusal-to-deal ruling, because the case should
proceed to trial in any event. The petition should be
denied in its entirety.
STATEMENT
A. Factual Background
1. Incumbent cable companies like Comcast, cable
“over-builders” like RCN and WOW!, direct broadcast
satellite companies like DISH, and phone companies
like Verizon and Frontier – collectively known as
multichannel video programming distributors or
“MVPDs” – compete to deliver video programming
and broadband services to consumer and business
subscribers. A191 (¶ 15). As part of their contractual
arrangements with cable networks, MVPDs have the
right to sell two or three minutes of advertising per
hour (the rest of the advertising is sold by the cable
network to national advertisers). Each advertising
slot is known as a “spot” or an “avail.” A193 (¶ 18).
Over-the-air TV broadcasters can sell ads that reach
every household in their broadcast area, but an MVPD

4
can deliver ads only to its own subscribers. Id. (¶ 19).
To compete more effectively, MVPDs have, for more
than 25 years, formed “interconnects,” metropolitanarea-wide selling cooperatives – often managed by an
incumbent cable company, i.e., one that inherited a
government-granted cable monopoly – that allow an
advertiser to reach every household served by any
participating MVPD. App. 291a-292a (¶¶ 35-36).
Broader MVPD participation in an interconnect
makes the ads purchased through that interconnect
more valuable, because they reach more households.
App. 293a (¶ 39); see NCTA Br. 7 (explaining benefits
of “collaborative approach”). By the same token,
excluding MVPDs from an interconnect degrades
the quality of its advertising, to the detriment of
all participants (and advertisers). App. 309a-310a
(¶ 116); A202, A247-48 (¶¶ 38, 118).
2. Despite the introduction of cable competition
in the 1990s, Comcast remains the dominant provider
in many markets (including Chicago and Detroit),
serving half or more of all subscribers. A213-14
(¶¶ 59-60). In such markets, competing MVPDs (lacking scale in that market) often outsource the job of
managing and selling their advertising avails to a
third-party “ad rep.” A194-95 (¶¶ 22-23). In a typical
arrangement, an MVPD transfers control over its
avails to its ad rep, which manages and sells them
on the MVPD’s behalf, keeping a percentage of the
revenue. A195-96 (¶ 24).
Respondent Viamedia has been providing Ad Rep
Services for decades. A23 (¶ 103); A562 (¶ 31). The
services it provides include marketing, pricing, and
selling avails; managing the MVPD’s promotional
advertising; technical services, such as encoding video
files and inserting ads on the client MVPD’s system in

5
the right place at the right time;1 and allocating avails
across sales channels and cable networks. A194-95
(¶ 22). As a business partner that does not compete
with its clients, Viamedia also assists MVPDs with
marketing their residential and business services.
A701-02 (¶ 3).
Viamedia’s principal competitors are in-house
advertising sales divisions of large cable incumbents,
including Comcast’s “Spotlight” division.2 App. 23a.
Spotlight not only handles Comcast’s avails but also
represents other MVPDs, including MVPDs that compete against Comcast for subscribers and advertising
revenue. A203-04 (¶ 43). “Comcast’s MVPD competitors d[o] not want to buy ad rep services from Comcast,” because Spotlight has an incentive to advantage
Comcast’s business objectives and because that
relationship gives Comcast access to “competitively
sensitive information” about competitors’ operations.
App. 32a-34a. Given the choice between Comcast and
Viamedia, many MVPDs prefer to be represented by
Viamedia to avoid the risks of handing over part of
their operations to their largest competitor. A236-37
(¶ 96).
1

Contrary to Comcast’s suggestion, when Viamedia is an
MVPD’s ad rep, Viamedia – not the interconnect manager – is
responsible for “maintaining the software and hardware needed
to run, insert, traffic, [and] monitor . . . ad spots” and for “ensuring each ad runs correctly during its allotted time,” Pet. 5, including ads sold through the interconnect. A103 (¶ 23); A201 (¶ 37).
2 Comcast’s claim that it provides Ad Rep Services “[a]s part of
running the interconnect,” Pet. 5, is incorrect; the provision of
Interconnect Services and Ad Rep Services are separate, App.
76a-77a; A205-10 (¶¶ 45-54); NCTA Br. 10-11 (interconnects are
functionally the same “whether . . . operated by an MVPD participant or an elected board composed of multiple MVPD representatives”).

6
3. By early 2003, Viamedia had contracted with
WOW! and RCN to provide Ad Rep Services in several
cities, including Chicago and Detroit, where WOW!
and RCN competed with Comcast. A430; A541. At
that time, as today, Comcast managed the interconnects in Chicago and Detroit. Comcast recognized
that it would benefit if RCN and WOW! – which then
served 300,000 households in those markets – participated in the interconnects. A430, A441. Comcast
therefore negotiated an agreement with Viamedia, as
WOW!’s and RCN’s representative, to include those
companies’ avails in the Chicago and Detroit interconnects. A430-43.
Under the terms of the agreement, 35% of the
MVPDs’ avails were made available for sale through
the interconnects. A432. In exchange, Viamedia paid
Comcast a fee of at least 25% of net revenues (i.e.,
revenues less Comcast’s costs, for which Comcast
was reimbursed) generated from selling those avails.
A431, A443. Comcast received tens of millions of
dollars in fees under the agreement without incurring
additional costs. App. 308a, 320a (¶¶ 110, 157-158).
4. Viamedia’s clients have participated in interconnects all over the country, and, before 2012, no
MVPD had ever been excluded from one. App. 309a
(¶ 116). Indeed, it would make no economic sense to
exclude an MVPD from an interconnect because, as
noted above, all interconnect participants, especially
the interconnect manager, benefit from broader participation. App. 309a, 319a-320a (¶¶ 116, 154-158).
In December 2011, however, Comcast notified Viamedia that, after their existing agreement expired
in May 2012, RCN and WOW! would no longer be
permitted to participate in the Chicago and Detroit

7
interconnects so long as they continued to be represented by Viamedia. A546.
Before making its decision, Comcast conducted an
analysis of the anticipated “Revenue Impact” of excluding RCN and WOW! from the Chicago and Detroit
interconnects, finding that Comcast would lose $10.6
million in revenue in the first six months after termination. A838; A787-88 (160:8-162:16). Furthermore,
Comcast knew that RCN and WOW! were under contract with Viamedia (and would remain so through
2015). A553 (¶ 14). It therefore knew that the effect
of its decision would be to exclude RCN and WOW!
from the interconnects (and lose associated revenues
and profits) for years.
Comcast nevertheless anticipated that, by making
an MVPD’s participation in the interconnect conditional on not dealing with Viamedia for Ad Rep Services, it would – in later years – be able to force those
MVPDs into a business relationship with Comcast
they otherwise would have shunned. A841, A844.
Indeed, when WOW! repeatedly tried to persuade
Comcast to reconsider, Comcast made clear that it
would not allow WOW! to participate in the interconnects unless WOW! agreed to employ Comcast, rather
than Viamedia, as its ad rep. A556-57 (¶ 19).
As a result of Comcast’s conduct, RCN and WOW!
lost $27 million in advertising revenue, Viamedia lost
corresponding ad rep revenue, and Comcast gave up
millions in fees alone. App. 29a. Furthermore, RCN’s
and WOW!’s subscribers were cut off from advertisements sold through the interconnect, further harming
those consumers and advertisers.
5. In 2015, WOW! and RCN solicited Ad Rep
Services proposals from Viamedia and Comcast for
Chicago and Detroit, among other markets. A116,

8
A118 (¶¶ 90, 99). Comcast offered to let RCN and
WOW! back into its interconnects if they would hire
Comcast, rather than Viamedia, as their ad rep.
A232-33 (¶ 88); A555-57 (¶¶ 18-19).
WOW! considered Viamedia to be “by far the best
ad partner . . . to work with” and had renewed its
contracts with Viamedia repeatedly between 2001 and
2015. A560 (¶¶ 25-26). Nevertheless, the financial
advantage of regaining access to the interconnects in
Chicago and Detroit led WOW! to sign with Comcast.
(WOW! continued to use Viamedia as its ad rep in
non-Comcast metropolitan areas.) A560-62 (¶¶ 28-29).
Though RCN had intended in 2014 to renew its
contract with Viamedia and had publicly commented
that it was “not comfortable” hiring Comcast, A886, it
switched to Comcast in 2015 to regain access to the
interconnects. A563-64 (¶¶ 34-36).
Following the loss of WOW!’s and RCN’s business,
Viamedia was forced to exit the market for Ad Rep
Services in Chicago and Detroit, leaving Comcast as
an unchallenged Ad Rep Services monopolist in those
markets. A552 (¶12).3
6. Although Comcast refuses to allow MVPDs
represented by Viamedia to participate in its interconnects, it elsewhere permits MVPDs not represented by
Viamedia to participate in Comcast-controlled interconnects on an interconnect-only basis – that is, it
allows MVPDs to contribute avails to the interconnect
even though Comcast does not provide them Ad Rep
3 A similar course of events played out in Hartford, where, in
2014, Frontier acquired AT&T’s telephone network, over which
AT&T and then Frontier provided video service. Comcast had
been AT&T’s ad rep, but Frontier signed with Viamedia. As a
consequence, Comcast excluded Frontier from the interconnect.
App. 26a-27a.

9
Services. A210 (¶ 53); A325 (tbl. 1), A351-59. Those
interconnect-only agreements contain financial terms
like those of the 2003 Viamedia-Comcast agreement,
namely, a fee to Comcast averaging approximately
25% of revenue. A325 (tbl. 1).
B. Procedural Background
1. Viamedia sued, alleging that Comcast violated
Section 2 of the Sherman Act by monopolizing the
market for Ad Rep Services in various geographic
markets. A37 (¶ 168). Viamedia’s complaint alleged
(as relevant here) that Comcast’s conduct constituted
an unlawful refusal to deal and tying (of Ad Rep Services to “access to the Interconnects,” i.e., Interconnect
Services – in which Comcast also had a monopoly
in the relevant geographic markets) and was thus
unlawfully exclusionary.
Comcast moved to dismiss. The district court mostly
denied Comcast’s motion, allowing Viamedia’s tying
theory (among others) to proceed, but it ruled that
Viamedia’s refusal-to-deal theory failed as a matter
of law. The court credited Comcast’s argument that
its conduct “offers potentially improved efficiency”
because requiring MVPDs to “deal with Comcast
directly” to secure interconnect access – rather than
allowing MVPDs the option of dealing with the interconnect manager through an intermediary – is a “prototypical valid business purpose.” App. 188a-189a.
Viamedia amended its complaint to allege additional
facts explaining why Comcast’s refusal to deal was
“irrational but for its anticompetitive effects.” See,
e.g., App. 320a-322a, 324a (¶¶ 158-161, 168). Comcast
again moved to dismiss, and the district court again
granted the motion on the same rationale, reiterating
its conclusion that Comcast’s conduct “potentially

10
serves a procompetitive purpose.” App. 205a (emphasis added).
2. After discovery on Viamedia’s remaining
claims, the district court granted Comcast’s motion
for summary judgment, holding (as relevant here)
that there was no triable issue as to Viamedia’s tying
theory. App. 207a-275a. The court assumed that
Interconnect Services and Ad Rep Services are separate products, App. 240a n.10, but ruled that Viamedia could not “show that Comcast ever withheld
[Interconnect Services] from customers unless they
also purchase [Ad Rep Services]” because “[t]he real
rub of Viamedia’s tying claim is, instead, that Comcast
withheld the tying product from its rival Viamedia,”
App. 243a.
3. The Seventh Circuit reversed. Judge Hamilton
wrote the Court’s opinion on behalf of himself
and Judge Bauer. Judge Brennan wrote a separate
opinion concurring in part and dissenting in part, in
which he agreed that “Viamedia has plausibly alleged
an antitrust violation and is entitled to reversal and
remand on its refusal-to-deal claim.” App. 109a.
a. The court of appeals noted that “the parties
do not dispute several often-contentious issues in
antitrust cases: the relevant geographic and product
markets, and market power.” App. 41a. It further
noted that there was no dispute about the anticompetitive impact of Comcast’s conduct: it “force[d]
its smaller [MVPD] competitors to stop doing business
with Viamedia,” and thereby “force[d] out its only
competitor in th[e] market [for Ad Rep Services] to
gain monopoly power.” App. 6a, 41a-42a.
Turning to Viamedia’s refusal-to-deal claim, the
court of appeals noted that, as a general matter,
“even monopolists are free to choose the parties with

11
whom they will deal, as well as the prices, terms, and
conditions of that dealing.” App. 46a. “Yet there are
limited circumstances under which a monopolist’s
refusal to deal with another party will be illegal
anticompetitive conduct.” App. 47a. The court first
analogized Comcast’s conduct to Lorain Journal Co. v.
United States, 342 U.S. 143 (1951), in which the defendant newspaper had refused to sell ads to anyone
who advertised with the town’s new radio station,
thus violating Section 2. “With the newspaper’s clear
expectation that it would outlast the new competition
and regain its complete monopoly, and with no apparent efficiency justification for its conduct, Lorain Journal has been described as entirely correct.” App. 47a
(citing Robert Bork, The Antitrust Paradox: A Policy
at War with Itself 344-45 (2d ed. 1993)).
The court of appeals then discussed at length this
Court’s decision in Aspen and the analysis of that case
in Trinko and Linkline. See App. 48a (“In addition to
reiterating Aspen Skiing’s continued, albeit narrow,
validity, the Court has also provided useful guidance
on primary factors to consider when determining
whether potentially anticompetitive conduct falls
within Aspen Skiing’s bounds.”). The court of appeals
noted that this Court “has described Aspen Skiing
as at or near the outer boundary of § 2 liability.”
App. 54a. Nevertheless, given the allegations in the
complaint, “Viamedia has presented a case that is well
within those bounds and appears stronger than Aspen
Skiing.” Id.
Comcast defended the district court’s order on the
basis that Aspen did not apply because Comcast’s
conduct “was not irrational but for its anticompetitive
effect” in that it “offers potentially improved efficiency.” App. 56a. The court of appeals rejected that

12
argument, holding that whether Comcast’s conduct
was in fact “ ‘a reasonable business decision’ ” or
instead “ ‘reflected its willingness to sacrifice immediate profits . . . in the hope of driving [Viamedia]
out of the market and recovering monopoly profits in
the long-run’ ” required “ ‘resolving questions of fact.’ ”
App. 58a (quoting Covad Commc’ns Co. v. Bell Atl.
Corp., 398 F.3d 666, 676 (D.C. Cir. 2005) (D. Ginsburg,
J.)) (brackets in original). Because “Viamedia has
alleged and offered evidence of enough harm to
competition from Comcast’s refusal-to-deal and tying
conduct” to state a claim, “[c]onsideration of procompetitive justifications must wait.” Id.; see also
App. 63a (Viamedia plausibly alleged that Comcast’s
“conduct was irrational but for its anticompetitive
effect”).
b. The court of appeals also reversed summary
judgment on the tying theory, finding that Viamedia
had presented evidence that “Comcast illegally tied
purchase of its ad rep services to the Interconnect
access it already controlled.” App. 72a. Comcast did
not question Viamedia’s evidence that Comcast has
market power in the tying-product market for Interconnect Services and has foreclosed all competition
in the tied-product market for Ad Rep Services. Id.
The court held that Viamedia had proffered sufficient
evidence to show that these are separate products for
tying purposes and “that Comcast forced its competitor MVPDs to become its customers for ad rep services
if they also wanted to keep their access to the Interconnects.” Id.
The district court’s contrary determination depended
entirely on its view that “Viamedia failed to offer evidence of forcing,” App. 81a, but the court of appeals
rejected each of the three assumptions on which that

13
ruling was based. First, the district court believed
that, because Comcast had no duty to deal with Viamedia, its conduct could be explained “by Comcast’s
legal refusal to deal rather than an illegal tying.” Id.
But – leaving aside whether Comcast’s refusal to deal
with Viamedia was lawful – “a tying claim does not
fail as a matter of law simply because it was implemented by refusing to deal with an intermediary.” Id.
Second, the district court thought the evidence left no
dispute that MVPDs wanted to obtain Ad Rep Services
and Interconnect Services only as a bundle. But, the
court of appeals held, there was at least a factual
dispute as to whether MVPDs wished to obtain Interconnect Services separately from Ad Rep Services.
App. 82a. Third, the district court found the evidence
left no dispute that “RCN’s and WOW!’s purchases
of Interconnect services and ad rep services from
Comcast were not forced.” App. 83a. But that finding
violated the summary-judgment standard by drawing
“inferences in favor of Comcast” and disregarding
evidence supporting Viamedia’s claims. Id.
c. Judge Brennan dissented in part solely with
respect to the disposition of the tying claim. He reasoned that, given that “14 percent of Comcast’s agreements with MVPDs across all [metropolitan areas]
since December 2011 were Interconnect-only agreements,” Viamedia could not prove that Comcast “has
ever declined an MVPD’s request for Interconnectonly services.” App. 120a. The majority, however, concluded that Comcast’s Interconnect-only agreements,
which were all in geographic markets where Viamedia
did not do business, “actually support[ ] Viamedia’s
case” because they show independent demand for the
two products and a willingness by Comcast to allow
them to be purchased separately when it does not face
an Ad Rep Services competitor. App. 84a-85a.

14
4. Comcast’s petition for rehearing en banc was
denied on the panel’s unanimous vote and without any
active judge requesting a vote on the petition. App.
278a-279a. Following remand, the parties have been
conducting the discovery “necessary” to prepare the
case for trial, App. 8a; that fact discovery will conclude
in early January 2021.
REASONS FOR DENYING THE PETITION
I. The Seventh Circuit’s Decision Does Not
Conflict With This Court’s Precedents
A. The Seventh Circuit Expressly Applied the
Aspen/Trinko Factors
Comcast’s primary grounds for seeking review – a
conflict between the decision below and this Court’s
precedents – cannot be squared with the court of
appeals’ decision. As the Seventh Circuit explained,
in Trinko and Linkline, “the Court has . . . provided
useful guidance on primary factors to consider when
determining whether potentially anticompetitive
conduct falls within Aspen Skiing’s bounds.” App.
48a. The court of appeals applied those factors to
the allegations in Viamedia’s complaint, holding that
there was “no sound basis to distinguish Viamedia’s
case as a matter of law.” App. 56a. That fact-bound
application of settled law is not worthy of review. And,
in any case, the appeals court was correct: because
Viamedia’s complaint alleged that all of the Aspen
factors are present, “this case is [relatively] eas[y].”
App. 63a.
First, Comcast, like the defendant in Aspen,
abruptly withdrew from a pre-existing, voluntary
course of dealing with its sole, smaller rival. In
Aspen, the defendant refused to renew the four-area
lift ticket, see Trinko, 540 U.S. at 408; here, Comcast
refused to renew its agreement with Viamedia and

15
thereby excluded from its interconnects MVPDs
represented by Viamedia, despite the alleged (and
undisputed) profitability for Comcast of that preexisting arrangement. Viamedia alleged that including MVPDs represented by Viamedia in the interconnects enhanced the interconnects’ value by increasing
their reach; Comcast, as interconnect manager,
earned additional fees (from the additional revenues
attributable to those MVPDs) without incurring additional costs. App. 308a, 319a-320a (¶¶ 110, 154-158).
Second, Comcast, like the defendant in Aspen, continued to participate, where the competitive dynamics
were different, in the type of venture it refused to
participate in where it was dominant and where it had
the ability to destroy a competitor. See App. 52a, 55a.
In Aspen, the defendant participated in all-area lift
tickets in multi-mountain ski areas where it “lacked
. . . dominance.” App. 52a. Comcast, where it faced
no competition from independent ad reps, allowed
MVPDs to participate in the interconnects without
purchasing Ad Rep Services from Comcast – the
very thing that Comcast refused to permit for
MVPDs represented by Viamedia. App. 28a, 55a.4
Likewise, in metropolitan areas where Comcast was
not dominant and did not control the interconnect, it
participated in interconnects without purchasing Ad
Rep Services from the interconnect operator. A206-07
(¶ 48).

4 Although Comcast takes issue with the court of appeals’
determination that “this case tracks Aspen in this respect,”
Pet. 15, the basis for that determination is clear, see App. 14a15a, 24a-25a, 28a, 55a, and, in any event, Comcast does not claim
that the opinion merits review to reconsider the court of appeals’
case-specific evaluation of alleged facts.

16
Third, Comcast, like the defendant in Aspen,
“decided to forgo profitable transactions . . . for the
sake of harming” its rival. App. 52a. In Aspen, the
defendant refused to sell lift tickets to the plaintiff,
even at full retail price, “reveal[ing] a distinctly anticompetitive bent.” Trinko, 540 U.S. at 409. For years,
Comcast threw away millions, if not tens of millions,
in fees that it could have earned had it simply permitted WOW! and RCN to continue to contribute their
avails to the interconnects (through Viamedia) on
the same terms that had prevailed under its prior
agreement (and that continue to prevail elsewhere),
pending the expiration of their existing contracts with
Viamedia. App. 29a. Doing so would have done nothing to limit Comcast from competing to oust Viamedia
as ad rep at the conclusion of Viamedia’s contracts
with WOW! and RCN. The difference is that Viamedia, its sole rival, would not have been harmed –
and thus weakened as a competitor. App. 29a, 55a.5
As the Seventh Circuit explained, the factual similarities between Aspen and the unusual allegations of
Viamedia’s complaint run deep – both cases involved
a sudden departure from a long-term, profitable joint
selling arrangement created without any regulatory
obligation; both involved conduct that alienated
customers; and both involved efforts to discourage
customers from doing business with a competitor. See
App. 54a-55a, 56a (“unless the Court meant to limit
5 Viamedia thus alleges exactly the type of refusal to deal that
Comcast’s amici economists assert should give rise to potential
liability. See Scholars of Economic & Antitrust Br. 15 (arguing
that a refusal to deal should give rise to liability only “where . . .
a defendant gave up a more profitable cooperative arrangement
with a competitor in favor of a less profitable exclusion strategy
that recouped its losses through the plaintiff ’s resultant inability
to compete”).

17
Aspen Skiing to ski resorts, we see no sound basis to
distinguish Viamedia’s case”). Contrary to Comcast’s
assertion, the decision below meticulously followed
this Court’s precedents; there is no conflict with them.6
B. The Seventh Circuit Properly Refused To
Credit Comcast’s Asserted Justification at
the Pleading Stage
1. Rather than dispute that the Seventh Circuit
followed and applied the Aspen/Trinko factors, Comcast argues for a reading of Aspen that would limit it
to circumstances where a defendant is “unable to offer
‘any efficiency justification whatever’ ” for a refusal to
deal. Pet. 4 (quoting Aspen, 472 U.S. at 608). On that
reading, Comcast argues, the Seventh Circuit erred in
allowing the complaint to proceed because Viamedia
supposedly “admitted” that Comcast had a valid “business justification.” Pet. 13; see also Pet. i (assuming
“the presence of valid business justifications”). But
the question that Comcast seeks to present is not
presented at all because the Seventh Circuit held
that, just as in Aspen, there is no such “admitted”
justification. App. 53a. On the contrary, the Seventh
Circuit found that the facts pleaded in the complaint
supported Viamedia’s allegation that “[t]here are no
procompetitive justifications to be achieved by the
conduct given that there were no material administrability problems” in dealing with Viamedia. App. 63a.
In light of its reading of the complaint, the Seventh
Circuit’s reversal of the district court’s judgment
raises no legal issue. When a plaintiff has pleaded
6 Comcast’s suggestion (at 15) that Aspen can be distinguished
on the (questionable) basis that the cable industry involves
greater technical complexity than the ski industry, see Pet. 15,
provides no basis for any principled distinction of this case, let
alone on a motion to dismiss.

18
facially anticompetitive conduct, as Viamedia has
undisputedly done here, and a defendant asserts a
procompetitive justification, the defendant bears the
burden of proving it (not merely asserting it), and
resolution of the case on the pleadings is usually,
for that reason, inappropriate. See App. 57a (“Valid
business justifications are relevant only to the rebuttal of a prima facie case of monopolization.”); see also
id. (rejecting Comcast’s argument “that a factual
dispute regarding the existence of procompetitive
justifications is appropriate for resolution on the
pleadings”).
Any suggestion that merely asserting a disputed
justification for an otherwise anticompetitive refusal
to deal is enough to defeat a claim would be flatly
inconsistent with Aspen, as the Seventh Circuit recognized. In that case, the defendant asserted that it had
ended its participation in the joint lift ticket to avoid
administrative burdens and free-riding by an inferior
competitor. The jury found that those asserted justifications were pretexts not supported by the evidence.
See id. (citing Aspen, 472 U.S. at 599, 605). The same
analysis applies in this case: a court cannot resolve a
dispute at the pleading stage over whether Comcast’s
post-hoc rationalizations for its conduct – which,
as discussed below, make no economic sense in any
event – were genuine or were pretexts for unlawful
exclusion.
The court of appeals’ ruling that a disputed justification for anticompetitive conduct cannot be the basis
for judgment on the pleadings is consistent not only
with Aspen but also with the myriad cases of this
Court and all of the courts of appeals holding that,
where a defendant bears the burden, as with an
affirmative defense, dismissal on the pleadings is

19
inappropriate “unless all facts necessary to the affirmative defense clearly appear on the face of the complaint.” Waugh Chapel South, LLC v. United Food &
Commercial Workers Union Local 27, 728 F.3d 354,
360 (4th Cir. 2013) (brackets omitted); see also Jones,
549 U.S. at 215. Having determined that no justification for Comcast’s conduct appeared on the face of
Viamedia’s complaint, the Seventh Circuit applied
established law in determining that it was wrong for
the district court to dismiss it.
Comcast does not take issue with this aspect of the
legal framework the Seventh Circuit applied – that is,
it does not dispute that, if the complaint did not admit
a procompetitive justification for its conduct, the
Seventh Circuit correctly reversed the district court’s
judgment. But that concession should lead this Court
to deny the petition, as the Seventh Circuit did not
accept that any such justification was established
by the pleaded facts. This eliminates the basis for
Comcast’s question presented, and it means that Comcast’s only argument is that the Seventh Circuit erred
in determining, based on its reading of Viamedia’s
complaint, that the existence of any procompetitive
justification raised a dispute of fact. That is a casespecific determination that implicates no disputed
legal issue and that accordingly does not merit review.
2. Furthermore, the Seventh Circuit’s determination that Comcast had failed even to posit a legitimate
justification for its conduct in light of the complaint’s
allegations was correct. See App. 56a (faulting the
district court for “accept[ing] . . . Comcast’s thinly
supported assertion that it had a valid business
purpose”). Comcast asserts that its conduct was motivated by a desire to “disintermediat[e]” Viamedia,”
Pet. 7, 13, but this is inconsistent with the complaint’s

20
allegations and makes no sense. The only transaction
as to which Viamedia was an intermediary was adding
its MVPD clients’ avails to the interconnects. Comcast
does not explain how Comcast (in its role as interconnect manager) incurs any additional costs or
surrenders any efficiency by obtaining avails from an
MVPD’s representative rather than from the MVPD
itself. To be sure, when an MVPD employs Viamedia
as an “intermediary” to ensure that the MVPD receives
its fair share (among other reasons), the MVPD
compensates Viamedia for its services. But the fact
that an MVPD is represented by an ad rep does not
diminish the value of the avails, and Viamedia is
being compensated by the MVPD for the services
Viamedia provides – and that the MVPD therefore
does not have to self-provide. As RCN stated, smaller
MVPDs “do[ ] not have the luxury of building [their]
own spot advertising business and must rely on third
parties,” A887, but are “not comfortable having [their]
largest and most formidable rival [Comcast] as [their]
representative,” A886.
The Seventh Circuit likewise properly rejected
Comcast’s argument that its refusal to deal with
Viamedia allowed it to achieve vertical integration.
“Vertical integration occurs when a firm provides to
itself some input that it might otherwise purchase
on the market.” IIIB Phillip E. Areeda & Herbert
Hovenkamp, Antitrust Law ¶ 755a (4th ed. 2015)
(“Areeda & Hovenkamp”). Comcast does not explain
what relevant vertical integration was at issue – it
already self-provided Ad Rep Services (see Pet. 5-6); it
likewise offered MVPDs Ad Rep Services and Interconnect Services on a vertically integrated basis.
Thus, “Comcast is vertically integrated and has been
at all relevant times.” App. 68a. To the extent Comcast gains efficiencies from such vertical integration,

21
it may be able to offer terms superior to those offered
by unintegrated competitors. But Comcast does not
and cannot explain how dealing with Viamedia
impeded any such integration. Comcast was always
free to compete on the merits regardless of whether
it dealt with Viamedia. Accordingly, refusing to deal
with Viamedia cannot be justified as a means to
achieve new efficiencies. Id.
Because Comcast’s proffered justifications for its
refusal to deal with Viamedia make no economic
sense, Comcast’s conduct appears to be precisely
the type of profit-sacrifice – irrational but for its
monopoly-reinforcing impact – that Comcast concedes
can be the basis for refusal-to-deal liability under this
Court’s unchallenged precedents.
II. The Seventh Circuit’s Decision Creates No
Circuit Conflict
Comcast’s claim of circuit conflict provides no justification for review because there is no such conflict.
None of the court of appeals cases it cites involved the
circumstances comparable to those that gave rise to
liability in Aspen, as the Seventh Circuit found is true
here. And none accepted, at the pleading stage, a
defendant’s contested justification for facially anticompetitive conduct.
Comcast’s claimed circuit conflict instead focuses on
the standards to apply in evaluating procompetitive
justifications that are supported by evidence. But any
difference in the articulation of these standards cannot justify review because they have yet to be applied
in this case and – in the absence of some evidence of
procompetitive justification that Comcast has yet to
present – may never be. As this Court has noted,
“it is our duty to look beyond the broad sweep of the
language and determine for ourselves precisely the

22
ground on which the judgment rests.” Black v. Cutter
Labs., 351 U.S. 292, 298 (1956). Furthermore, the
court of appeals’ various formulations describing
exclusionary conduct are generally consistent and unlikely to lead to different outcomes in particular cases
and would not in this one. Any supposed tension –
given the entire absence of any inconsistency in the
holdings of cases involving comparable conduct – is
illusory.
A. Comcast Identifies No Circuit Conflict with
Respect to the Holding Below
1. Far from creating any split with Novell, Inc.
v. Microsoft Corp., 731 F.3d 1064 (10th Cir. 2013)
(Gorsuch, J.), the Seventh Circuit cited that case
extensively as persuasive authority (as did both
parties and the United States). See, e.g., App. 42a43a, 53a-54a, 61a, 99a. Novell did not involve the
evaluation of a complaint – it was decided after trial –
and the decision in that case turned not on the
adequacy of asserted procompetitive justification for
facially anticompetitive conduct, but on the failure of
the plaintiff to prove that the defendant’s refusal to
deal was prima facie unlawful.
Novell involved a challenge to Microsoft’s decision to
withdraw software developers’ access to programming
interfaces (“APIs”) that made it easier for them to
create applications for Microsoft’s new operating
system. 731 F.3d at 1067-68. Relying on Aspen, the
plaintiff argued that Microsoft’s refusal to share the
APIs was unlawful.
The Tenth Circuit noted that the plaintiff “can
satisfy the first essential component of refusal to
deal doctrine” – that is, a “voluntary and profitable
relationship” terminated by the defendant. Id. at
1076. But the Court held that another critical element

23
of the Aspen standard was not satisfied: plaintiff
“presented no evidence from which a reasonable jury
could infer that Microsoft’s discontinuation of th[e]
arrangement suggested a willingness to sacrifice shortterm profits.” Id. (emphasis added).
By contrast, Viamedia has alleged this circumstance. See App. 52a. By refusing to allow MVPDs
represented by Viamedia to participate in the interconnects, Comcast threw away millions if not tens
of millions of dollars. And, although Novell did not
present such a circumstance, because it involved no
profit sacrifice, this is not a case where Comcast has
established that it chose to “suffer a short-term profit
loss in order to pursue perfectly procompetitive ends.”
See App. 53a-54a (citing Novell, 731 F.3d at 1075).
On the contrary, the MVPDs represented by Viamedia
were under contract (and therefore Comcast could
not contract with them directly until those contracts
expired) and Comcast was free to compete for their
business (at the expiration of their existing contract)
whether or not the contract with Viamedia was renewed. The inference that Comcast refused Viamedia’s
clients interconnect access to degrade Viamedia’s
Ad Rep Services offering and punish MVPDs that
had chosen that offering over Comcast’s is, if not
inescapable, more than sufficient to satisfy Viamedia’s
pleading burden.7
7

Although Comcast cites Christy Sports, LLC v. Deer Valley
Resort Co., 555 F.3d 1188, 1197 (10th Cir. 2009), it does not
elaborate on any claimed conflict with the decision below:
the plaintiff there failed to plead any facts indicating that the
defendant was “terminating a profitable business relationship,”
id., which Viamedia did allege in this case.
SOLIDFX, LLC v. Jeppesen Sanderson, Inc., 841 F.3d 827
(10th Cir. 2016), likewise adds nothing: in that case, the court

24
2. There is also no conflict with Port Dock &
Stone Corp. v. Oldcastle Northeast, Inc., 507 F.3d 117
(2d Cir. 2007). In that case, following a challenged
acquisition, the defendant (which had a monopoly in
the production of crushed stone) began distributing
on its own, stopping sales to the distributor plaintiff.
See id. at 119-20. The Second Circuit held that a
monopoly producer generally brings a distribution
function in-house – rather than dealing with thirdparty distributors – “for the purpose of increasing
its efficiency.” Id. at 124. And there were no “special
circumstances” indicating otherwise. Id. at 125.
As the Seventh Circuit explained, “[t]he facts of Port
Dock do not map onto the conduct of Comcast, which
was already vertically integrated.” App. 66a; see
supra pp. 20-21. A critical difference between Port
Dock and this case is that there was no allegation that
the defendant actually lost any sales as a result of
its decision to bring the distribution function in-house,
whereas, here, Comcast sacrificed profitable sales as
a result of its refusal to deal with Viamedia. For Port
Dock to offer even a distant analogy, the plaintiff there
would have had to allege that certain end user customers were deprived of crushed stone altogether because
they could only be served by the plaintiff. There was
no such allegation. And, more generally, Port Dock
did not involve the sort of cooperative, joint-selling
arrangement at issue in Aspen and in this case. For
all of these reasons, the Second Circuit found Aspen
easily distinguished. See Port Dock, 507 F.3d at 126.
affirmed partial summary judgment on the basis that a copyright
owner’s invocation of its right to exclude – and refusal to grant
a license – is “presumptively rational.” Id. at 843. Intellectual
property law grants rights to exclude precisely so that a creator
can reap the rewards of innovation either by licensing or by
declining to do so. There is no such interest implicated here.

25
3. Although Comcast asserts a conflict with
refusal-to-deal decisions from the Ninth and Eleventh
Circuits as well, it cites no case that dismissed a claim
on the basis that the pleadings revealed a procompetitive purpose for a facially anticompetitive refusal
to deal. In Aerotec International, Inc. v. Honeywell
International, Inc., 836 F.3d 1171 (9th Cir. 2016), at
summary judgment, the court quickly distinguished
Aspen on the ground that the defendant did not refuse
to deal, but simply imposed business terms that the
plaintiff “did not like.” Id. at 1184.8 In Oahu Gas
Service, Inc. v. Pacific Resources, Inc., 838 F.2d 360
(9th Cir. 1988), the plaintiff alleged that the defendant
had engaged in exclusionary conduct by refusing to
expand a refinery; the court, after trial, found that
the proposed expansion “would have resulted in a
negative return.” Id. at 368. And in Morris Communications Corp. v. PGA Tour, Inc., 364 F.3d 1288 (11th
Cir. 2004), the court held – at summary judgment
and without even considering whether the plaintiff
had established other elements of its claim – that the
defendant had established that its refusal to deal with
the plaintiff would prevent free-riding; the plaintiff
had presented no evidence to undermine this rationale.
Id. at 1295-96. Comcast does not argue that Viamedia
was free-riding – for one thing, any ride was never
free – and a similar dispute over any procompetitive
justification that Comcast does manage to support
with evidence lies in the future.
8 Although Comcast makes brief reference to its supposed
willingness to enter into an agreement with Viamedia in 2014,
not only would that fail to justify its prior categorical refusal, but
Viamedia alleged that Comcast made no genuine offer to deal at
all, see App. 311a (¶¶ 122-123), an allegation that Viamedia later
supported with evidence, see App. 27a-28a. The undisputed evidence on summary judgment in Aerotec foreclosed such a claim.

26
B. Supposed Inconsistencies in Standards
Governing Evaluation of Proffered Legitimate Business Justifications Do Not Merit
Review
Because Comcast did not contest that its conduct
was facially anticompetitive, the court of appeals
devoted substantial attention to the question of what
showing Comcast would be required to make to avoid
liability at trial. Comcast’s petition focuses on that
issue – that is, the analysis that may apply at a later
stage of this case. And it argues that the Seventh Circuit’s articulation of those standards is inconsistent
with the articulation by other courts of appeals.
1. Any tension that exists on this score would not
justify review. The only refusal-to-deal holding at
issue at this stage of the case is that Viamedia’s
complaint stated a claim under Aspen/Trinko, in part
because the complaint did not establish any legitimate
justification for Comcast’s refusal to deal. The
Seventh Circuit’s additional guidance – while binding
on the district court – is not the basis for its holding.
Granting review to delve into statements that are not
the basis for the judgment would run afoul of the
bedrock principle that this Court “ ‘reviews judgments,
not statements in opinions.’ ” California v. Rooney,
483 U.S. 307, 311 (1987) (per curiam) (quoting Cutter
Labs., 351 U.S. at 297); accord Chevron U.S.A. Inc.
v. Natural Res. Def. Council, Inc., 467 U.S. 837, 842
& n.8 (1984) (“this Court reviews judgments, not
opinions”).
Adherence to that principle makes especially good
sense here. The guidance that the Seventh Circuit
provided with respect to evaluation of potential
justifications for Comcast’s conduct may never become
relevant in this case, as Comcast has yet to proffer any

27
evidence of (or even identify) a legitimate justification
for its conduct, as the Seventh Circuit correctly determined. As this case comes to this Court, Comcast
proposes two justifications – disintermediation and
“vertical integration” – that make no sense, see supra
pp. 19-21, and for which no evidence was proffered
at summary judgment as to Viamedia’s related tying
claim. Perhaps something will turn up, but it has not
so far and may well never. (“ ‘Facts are stubborn
things.’ ” Timbisha Shoshone Tribe v. Salazar, 678
F.3d 935, 939 (D.C. Cir. 2012) (quoting David
McCullough, John Adams 68 (2001)).)
The parties are currently engaged in litigation in
district court, with Comcast aggressively pursuing
what little discovery remains. In two months, fact
discovery will be done, and the case will soon be ready
for trial. This Court generally disfavors interlocutory
review, especially when, as here, an issue will be
potentially mooted by later proceedings. See, e.g.,
Mohawk Indus., Inc. v. Carpenter, 558 U.S. 100, 107
(2009) (“The justification for immediate appeal must
. . . be sufficiently strong to overcome the usual benefits of deferring appeal until litigation concludes.”);
FEC v. Akins, 524 U.S. 11, 28-29 (1998) (declining to
review question where events on remand could moot
the issue); National Football League v. Ninth Inning,
Inc., No. 19-1098 (U.S. Nov. 2, 2020) (Kavanaugh, J.,
respecting the denial of certiorari). The inappropriateness of this case as a vehicle to decide the issue that
Comcast purports to present is reason enough to deny
the petition.
2. Furthermore, Comcast’s claim of conflict is
illusory. Comcast argues that any business justification – no matter how attenuated or unpersuasive –
can justify any anticompetitive refusal to deal, no

28
matter how destructive of competition and harmful to
consumers. See App. 59a (“Comcast proposes that if a
defendant merely postulates a valid business purpose
– apparently including any business purpose a defendant could dream up, regardless of feasibility or value
– that ends the inquiry.”). But no case articulates
such a standard, and the United States (whose support Comcast claims based on a brief filed in support
of neither party) expressly disavowed it in the court
below. See id.
Once a plaintiff establishes a prima facie case that
a defendant’s conduct is exclusionary – something
that the plaintiff failed to do in Novell, for example –
the burden shifts to the defendant to justify that
conduct. App. 64a. That is true whether the conduct
is a refusal to deal, exclusive dealing, or affirmative
conduct that interferes with a rival’s ability to
compete on its own. See United States v. Microsoft
Corp., 253 F.3d 34, 58-59 (D.C. Cir. 2001) (en banc)
(per curiam); cf. Ohio v. American Express Co., 138
S. Ct. 2274, 2284 (2018). No disagreement there.
Nor can there be any dispute, in light of Aspen and
common sense, that a purely pretextual justification
will not suffice. See also Eastman Kodak Co. v. Image
Technical Servs., Inc., 504 U.S. 451, 483-85 (1992).
Again, Comcast cites no case to the contrary. And,
once the defendant meets that burden, the plaintiff
bears the burden of rebutting the justification. See
Microsoft Corp., 253 F.3d at 59.
Comcast argues that, in the case of a potentially
unlawful refusal to deal, no balancing is ever required.
But the Seventh Circuit correctly recognized the fallacy of that assertion – one cannot determine whether
conduct provides a legitimate justification for facially
unlawful conduct without considering the scope of the

29
harm. App. 58a. See, e.g., IIIB Areeda & Hovenkamp
¶ 772c2 (“Condemnation would be appropriate” for
unilateral refusal to deal that “clearly injures an
actual or prospective rival . . . with a business justification that is poorly fitted to the result or wholly disproportionate to the harm that is inflicted.”)
This is not to question the importance of categorical
rules in defining the types of unilateral conduct that
should be subject to scrutiny; the Aspen factors – as
clarified in Trinko – provide such guidance, without
the need to consider and balance the potentially
harmful effects of a refusal to deal on a case-by-case
basis. See Linkline, 555 U.S. at 454-55; Novell, 731
F.3d at 1076; cf. App. 63a. No antitrust lawyer would
have advised Comcast that its decision to exclude
Viamedia’s clients from the interconnects was free of
liability risk based on the facts alleged here. Having
ignored the guardrails established in Trinko, Comcast
cannot complain if it now faces some burden to prove
why its decision to do so was justified. And it cites no
authority that, on similar facts, adopted a different
rule.
III. The Determination That Disputed Issue Of
Fact Precluded Summary Judgment On
Viamedia’s Tying Claim Does Not Warrant
Review
A. Comcast’s second question – whether the decision to permit Viamedia’s tying claim to proceed
“avoid[ed] the limitations on a § 2 refusal-to-deal
claim,” Pet. i – requires assuming that Comcast
“lawfully refused to deal with Viamedia,” Pet. 29, and
therefore that Viamedia’s tying claim should have
failed on the ground that it was an “end-run around
Trinko,” Pet. 26. If the Court denies review on the
first question, that is sufficient reason to deny the
second question as well.

30
B. The second question is not worthy of review
for additional, independent reasons. All agree that
the Seventh Circuit applied the correct legal standard
by evaluating, under established summary-judgment
principles, whether Viamedia had proffered evidence
of the elements of an unlawful tying arrangement:
(1) separate products, (2) market power over the
tying product, and (3) conduct by the defendant that
“exploit[ed] . . . its control over the tying product to
force the buyer into the purchase of a tied product that
the buyer either did not want at all, or might have
preferred to purchase elsewhere on different terms.”
Jefferson Parish Hosp. Dist. No. 2 v. Hyde, 466 U.S. 2,
12 (1984). Comcast’s second question asks whether
the Seventh Circuit correctly concluded that there is
a genuine fact dispute about the third element. That
fact-bound determination does not warrant review.
Comcast contends (and the district court agreed)
that the record shows only a refusal to deal with
Viamedia, and therefore Viamedia’s Section 2 claim
rises or falls on whether that refusal was lawful. See,
e.g., Pet. 26; App. 250a. The Seventh Circuit, by contrast, held that a jury “could easily find that Comcast
improperly forced the smaller MVPDs to buy its ad
rep services using its monopoly in the Interconnect
services market.” App. 78a. That conclusion was
based on “unusually explicit pieces of evidence” of
forcing directed at MVPDs, which the district court
had ignored or interpreted in Comcast’s favor, such as
the admission of a Comcast executive “that Comcast
had a business practice that ‘if an MVPD wants to
get access to a Comcast [Spotlight] controlled Interconnect, it has to hire Comcast [Spotlight] as its
ad sales representative.’ ” App. 77a (emphasis added;
alterations in original) (quoting A215 (¶ 64)). Comcast’s
case-specific contention that this evidence should have

31
been interpreted in its favor is not worthy of this
Court’s review.
Moreover, that Comcast’s refusal to deal with
Viamedia was part of “the same course of conduct” as
tying, App. 39a, does not make the refusal and the tie
co-extensive. As one of Viamedia’s experts explained,
that refusal was “an integral part of Comcast’s tying
conduct,” A218-19 (¶ 70) (emphasis added), but not
all of it.9 The record shows that Comcast directly
communicated to MVPDs the condition that they
could not contribute their avails to Comcast’s interconnects unless they hired Comcast as their ad rep.
See, e.g., A556-57 (¶ 19); A749-50 (89:24-90:4); A811
(234:2-7, 235:5-11); A844; A887. Even if Comcast were
privileged to refuse to deal with Viamedia, that would
not immunize Comcast from liability for coercive
conduct directed at its own prospective customers.
Linkline provides no support for Comcast’s argument. There, the plaintiff claimed the defendant was
increasing the plaintiff ’s costs by selling too high in
the wholesale market and reducing the plaintiff ’s
revenue by selling too low in the retail market. 555
U.S. at 449. This Court held that each pricing decision
was “independently lawful,” id. at 455, and thus plaintiff ’s “price squeeze” theory was “nothing more than
an amalgamation of ” two “meritless claim[s],” id. at
452. Viamedia’s tying claim is based on Comcast’s
9 Indeed, Comcast agrees. In the district court, it currently
seeks wide-ranging discovery on Viamedia’s refusal-to-deal
claim, contending that, “even though some facts are relevant to
both claims, the claims are fundamentally distinct,” and “the
relationship between Viamedia’s two claims does not mean . . .
that there was a total overlap between the . . . factual bases of
those claims.” Comcast’s Opp. to Viamedia’s Mot. for Protective
Order 7-8, Viamedia, Inc. v. Comcast Corp., No. 16-cv-5486 (N.D.
Ill. Sept. 30, 2020) (emphases added), ECF No. 406.

32
strategy of unlawfully requiring MVPDs to buy Ad Rep
Services from it instead of Viamedia if they wanted
their avails sold through Comcast’s Interconnects, see
App. 77a-78a, not an “amalgamation” of two lawful
strategies. This Court has long recognized that such
a “condition[ ]” on the sale of a monopoly product is
“unreasonable in and of [itself ].” Northern Pac. Ry.
Co. v. United States, 356 U.S. 1, 6 (1958).
C. There is, moreover, no circuit split. In Aerotec,
the tying claim failed because, unlike here, the plaintiff proffered no evidence of “a tying condition.” 836
F.3d at 1180. The Ninth Circuit did not, as Comcast
claims, “reject[ ] the plaintiff ’s assertion ‘that a refusal
to deal with competitors may form the basis of a tying
claim.’ ” Pet. 30 (quoting Aerotec, 836 F.3d at 1180).
Instead, the Ninth Circuit rejected the idea that “tactics imposed on a third-party competitor are sufficient
by themselves to create a tie.” Aerotec, 836 F.3d at
1180 (emphasis added). This case involves economic
pressure imposed directly on customers as well as on
a third-party competitor representing those customers, see supra p. 30, so the reasoning of Aerotec does
not apply.
In Service & Training, Inc. v. Data General Corp.,
963 F.2d 680 (4th Cir. 1992), customers who purchased computer repair services (the tied product)
from the defendant did not purchase the tying product
(a diagnostic tool), and customers who serviced their
own computers were permitted to license the diagnostic tool without purchasing repair services from the
defendant. Id. at 685-87. Therefore, the defendant in
Data General, like the defendant in Aerotec but unlike
Comcast, did not deny customers the opportunity to
obtain separate products from different sources by

33
conditioning the provision of a tying product on the
purchase of a tied product.10
CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
AARON M. PANNER
Counsel of Record
JAMES M. WEBSTER III
DEREK T. HO
MATTHEW R. HUPPERT
KELLOGG, HANSEN, TODD,
FIGEL & FREDERICK, P.L.L.C.
1615 M Street, N.W.
Suite 400
Washington, D.C. 20036
(202) 326-7900
(apanner@kellogghansen.com)
November 3, 2020

10 Novell likewise does not address the type of customerdirected conduct at issue here.

